supreme Court, U.S.
FILED

JUN 1 1 2021

-5755

No.

OFFICE OF THE CLERK

IN THE
SUPREME COURT OF THE UNITED STATES

Kevin L. Frost
(Your Name)

— PETITIONER

vs.
State of Kansas

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

Kansas Court of Appeals
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

Kevin L. Frsot
(Your Name)
P.O. Box #311
(Address)
El Dorado, KS. 67042
(City, State, Zip Code)
N/A
(Phone Number)

QUESTiON(S) PRESENTED
Petitioner contends that the sentencing court
did not follow the proper statutory procedure with
the improper weighing of mitigating and aggravating
facts at sentencing, which resulted in partiality
and prejudice. Where relief was granted in other
cases, Petitioner moves that the result was a
violation of his due process rights under the 6th
and 14th Amendment of the Constitution.

LIST OF PARTIES

[x] All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES

State of Kansas vs. Frost/ No. 106,375
Kansas Appeals, November 9, 2012
Frost vs. State of Kansas, No. 114,228
Kansas Appeals, July 29, 2016(unpub.)

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
STATEMENT OF THE CASE
REASONS FOR GRANTING THE WRIT
CONCLUSION

INDEX TO APPENDICES
APPENDIX A Kansas Court of Appeals - May 8, 2020
Appellate Case No. 19-121031-A
Affirmation of District Court's Denial
APPENDIX B Sedgwick County District Court - November 6, 2019
District Court Case No. 18CV2261
Denied
APPENDIX C Kansas Supreme Court Denying Review
March 12, 2021
APPENDIX D
APPENDIX E
APPENDIX F

TABLE OF AUTHORITIES CITED

PAGE NUMBER

CASES
State vs. Jolly, 301 Kan. 313, 342 P.3d 935
Supreme Court of Kansas - Feb. 20, 2015
State vs. McCormick, 305 Kan. 43, 378 P.3d 543
Supreme Court of Kansas - Sept. 9, 2016
No. 67,723
State____________
vs. Richard, 850 P.2d 844
Supreme Court of Kansas - April 16, 1993

STATUTES AND RULES
K.S.A. 21-4643

OTHER

No. 106,680
No. 109,985

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW

[ ] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[X] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix A to the petition and is
5 or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[x] is unpublished.
Sedgwick Countv District
court
The opinion of the
to the petition and is
appears at Appendix
; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

to

to

JURISDICTION

[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was_____________________ _
[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date:______,_____
, and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
(date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[X] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix__h___

rfenierj

[X] A timely petition for rehearing was thereafter denied on the following date:
March 12, 2021
and a copy of the order denying rehearing
appears at Appendix__ CL
[ ] An extension of time to file the petition for a writ of certiorari was granted
(date) in
(date) on
to and including____
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
Cunningham vs. Hudson, 2010 U.S. Dist. LEXIS 129636
Northern District of Ohio, Eastern Division
6th Circuit District Court
Dec. 7, 2010
Case No. 3:06CV0167
Harlow vs. Murphy, 2008 U.S. Dist. LEXIS 124288
Case No. 05-CV-039-B
Jan. 15, 2008
Jeffers vs. Lewis, 38 F.3d 411
September 28, 1994
No. 86-1840

STATEMENT OF THE CASE
Petitioner entered a guilty plea to one count of aggravated indecent
liberties. On November 9, 2012, bringing the issue on direct appeal whether
the sentence imposed, constituted cruel and unusual punishment. The Kansas
Court of Appeals affirmed Petitioner's conviction.
On June 23, 2014, Petitioner filed his first 60-1507 petition alleging
ineffective assistance of trial and appellate counsel, which was summarily
denied by district court. The Kansas Court of Appeals affirmed.
In his October 10, 2018, 60-1507 (the denial of which is the subject of
this appeal) Petitioner alleged that the trial court did not comply with the
provision of K.S.A. 21-4643 by not following the proper statutory procedure,
when the court weighed aggravating factors versus mitigating factors, and
the sentencing court failed to follow proper procedure in making its decision
to deny Petitioner, The district court summarily dismissed Petitioner's
petition, finding the issues were untimely and successive. The Kansas Court
of Appeals affirmed.
The proper statutory procedure, as provided in State vs. Jolly, 106,680,
Supreme Court of Kansas 342 P.3d 935(2015), instructs a sentencing court to
conduct a review of mitigating circumstances without balancing them against
the aggravating ones. Subsequently, case Jolly, as well as others, have been
reversed and remanded for this based upon this identical issue. This supports
Petitioner's claim of his due process being violated.

!•

REASONS FOR GRANTING THE PETITION
I am requesting that my case be granted under the following
factors:
1.

My situation is truly unique; after researching other

federal cases regarding mitigating and aggravating factors.
It became noticeable that the courts allowed mitigating and
aggravating factors to be weighed against each other. In
the K.S.A. 21-4643 statute, the courts are to conduct a review
of the mitigating circumstances without balancing them against
the aggravating ones. In my sentencing transcript it clearly
shows the judge did not do this, plus he quoted the wrong
statute,
2.

and

I was denied an evidentiary hearing on November 6, 2019,

which violated my due process rights.

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submr

svin L ,/Frost
Date:

\A*A<. [Of -202, (

